<html>
<title> - NEPAL: TRANSITION FROM CRISIS TO PEACEFUL DEMOCRACY</title>
<body><pre>[Senate Hearing 109-952]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-952
 
          NEPAL: TRANSITION FROM CRISIS TO PEACEFUL DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2006

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                     U.S. GOVERNMENT PRINTING OFFICE

33-733 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



















                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                 LINCOLN CHAFEE, Rhode Island, Chairman

CHUCK HAGEL, Nebraska                BARBARA BOXER, California
NORM COLEMAN, Minnesota              PAUL S. SARBANES, Maryland
GEORGE V. VOINOVICH, Ohio            BILL NELSON, Florida
J0HN E. SUNUNU, New Hampshire        BARACK OBAMA, Illinois

                                  (ii)

  



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Boucher, Hon. Richard A., Assistant Secretary for South and 
  Central Asian Affairs, Department of State, Washington, DC.....     2
    Prepared statement...........................................     3
    Responses to questions submitted by Sen. Joseph Biden for the 
      record.....................................................    28
Chafee, Hon. Lincoln, U.S. Senator from Rhode Island, opening 
  statement......................................................     1
Norris, John, Washington Chief of Staff, International Crisis 
  Group, Washington, DC..........................................    17
    Prepared statement...........................................    20
Thapa, Deepak, William P. Fuller Fellow in Conflict Resolution, 
  The Asia Foundation, Columbia University, New York, NY.........     7
    Prepared Statement...........................................     9
Zia-Zarifi, Sam, research director of The Asia Program, Human 
  Rights Watch, New York, NY.....................................    12
    Prepared statement...........................................    14

                                 (iii)

  


           NEPAL: TRANSITION FROM CRISIS TO PEACEFUL DEMOCRACY

                              ----------                              


                         THURSDAY, MAY 18, 2006

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m., 
room SD-419, Dirksen Senate Office Building, Hon. Lincoln 
Chafee, (chairman of the subcommittee) presiding.
    Present: Senator Chafee.

  OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM 
                          RHODE ISLAND

    The Chairman. The Committee on Foreign Relations 
Subcommittee on Near Eastern and South Asian Affairs stands 
open. This committee is pleased to open two panels of witnesses 
today. On our first panel, we will hear from Hon. Richard 
Boucher, Assistant Secretary of State for South and Central 
Asian Affairs. Ambassador Boucher, welcome and thank you for 
being here.
    And our second panel will consist of Mr. Deepak Thapa, a 
citizen of Nepal and the William P. Fuller Fellow in Conflict 
Resolution at The Asia Foundation. Also Mr. Sam Zia-Zarifi, the 
Asia Program Research Director at Human Rights Watch Crisis 
Group. And Mr. John Norris, Washington Chief of Staff for the 
International Crisis Group.
    Gentleman, welcome, we look forward to your testimony. The 
purpose of this hearing is to review the current state of 
affairs in Nepal and to examine ways the United States can help 
stabilize the country and strengthen the Democratic process 
during this time of transition. There is cause for cautious 
hope, now that the Democratic rule has been restored and a new 
Nepal police government has been formed from the Seven Party 
Alliance.
    Just today, Nepal's lawmakers introduced a resolution that 
would put the army under civilian authority and limit the 
King's powers. But significant challenges remain. Will the 
insurgents remain part of the political solution and lay down 
their arms? How might a changed role from the monarchy impact 
stability and governance of the country? Will the royal Nepal's 
police army be able to transition to and accept civilian 
leadership? What impact will recent events in Nepal likely have 
on the region? I call this hearing because I believe Nepal is 
in a critical time in its history. We have seen great changes 
in the space of a few short weeks and we need to examine our 
foreign policy and aid to ensure that our approach takes 
account of these changes. We may need to make sure that these 
changes are coordinated throughout our Government, strengthens 
the voice of peace, and helps solidify the Democratic 
transition.
    We also need to assess what are the most effective ways to 
collaborate with other countries and multilateral institutions 
to support the peace. Thank you for agreeing to testify today 
and we look forward to your testimony and discussion. If you so 
choose, you may submit your entire statement for the record and 
summarize, but that is up to you. Welcome Mr. Boucher.

 STATEMENT OF HON. RICHARD A. BOUCHER, ASSISTANT SECRETARY FOR 
     SOUTH AND CENTRAL ASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Boucher. Thank you Senator. Mr. Chairman, thank 
you. I do have a slightly longer statement I would like to see 
put in the record. I will give you a brief summary.
    The Chairman. Without objections.
    Ambassador Boucher. As you say, it is a critical time and I 
am glad you are having this hearing. I think we are at a very 
important moment. It is also a very hopeful moment for the 
people of Nepal.
    The United States is doing our part, we think, to help the 
people of Nepal fulfill their goals of democracy, security, and 
prosperity. As you mentioned, on April 24, the King bowed to 
public pressure and announced the reinstatement of Parliament. 
On April 28, Parliament convened for the first time since 2002, 
with G.P. Koirala of the Nepali Congress Party at the helm of a 
new Government of national unity.
    I traveled to Nepal a few days after that with my NSC 
colleague to underscore U.S. support for the new Government and 
for the political process as it was getting underway. 
Expectations are certainly high among the Nepali people and 
among all the friends of Nepal. Our development and economic 
assistance is already meeting some of the acute needs of the 
Nepalese people and of their Government.
    We have a team in Nepal this week to assess where our 
assistance could have the greatest immediate impact. Areas in 
which we feel we can make a positive difference include 
strengthening the political parties, expanding rural projects, 
providing technical assistance and equipment to the Parliament, 
assisting reintegration of internally displaced persons, and 
supporting elections. We also stand ready to provide assistance 
to the security forces when requested by the new Government.
    We and many in Nepal and in the international community 
remain wary of Maoist intentions. They have instigated a brutal 
insurgency and are responsible for countless human rights 
abuses. Unfortunately, Maoist human rights abuses, including 
kidnappings and extortion, have continued even since the cease-
fire declarations. The Maoists need to be judged by their 
actions. If they renounce violence and respect human rights, 
there is a place for them in Nepal's political arena. Until 
they take those steps however, the international community and 
the political leaders need to maintain a solid determination.
    The international community has an important role to play 
in all this. We hope that other donor governments, some of 
which withdrew or reduced assistance during the period of royal 
misrule and usurpation of power, will also focus now on 
strengthening capacity for democratic governance as they 
evaluate how best to support Nepal. But in the end, Nepal's 
future is in the hands of its people and its political leaders. 
As they head toward a constituent assembly the United States 
stands behind the people's right to make choices for themselves 
through a free and fair political process. We will be there to 
support them as they move forward.
    Mr. Chairman, I want to thank you for this opportunity to 
appear here and I would be glad to take any questions that you 
have.
    [The prepared statement of Ambassador Boucher follows:]

Prepared Statement of Hon. Richard A. Boucher, Assistant Secretary for 
  South and Central Asian Affairs, Department of State, Washington, DC

    Mr. Chairman and members of the committee, thank you for inviting 
me here today to discuss recent developments in Nepal. We are at a 
hopeful moment for the people of Nepal, and the United States is doing 
our part to help them fulfill their goals of democracy, security, and 
prosperity.
    Popular anger at King Gyanendra's autocratic misrule since February 
1, 2005 boiled over in April 2006, resulting in massive demonstrations 
across the country and broad public support for the nationwide general 
strike called by Nepal's seven major political parties. The King's 
government responded by arresting demonstrators and political 
activists, and imposing daily curfews. The security forces' use of 
violence against demonstrators resulted in at least 16 deaths and 
thousands of injuries, but the democracy movement passed every test of 
its resolve, forcing the King in the end to recognize that the people 
of Nepal would not rest until their sovereignty was restored. On April 
24, the King bowed to public pressure and announced the reinstatement 
of Parliament. On April 28, Parliament convened for the first time 
since 2002, with G.P. Koirala of the Nepali Congress Party at the helm 
of a new government of national unity.
    I traveled to Nepal earlier this month to underscore United States 
support for the new government and to evaluate the political situation 
firsthand. I found political party leaders with a renewed commitment to 
stay united as they work to improve their country; an army that is 
committed to serving a new, democratic, civilian government; civil 
society leaders intent on ensuring the new government makes good on its 
promises; and a public that for the first time in years seems 
optimistic about the rewards democracy can bring to Nepal, and an 
interest in pushing their leaders to deliver. We share that optimism, 
and will support the people of Nepal as they work to build a more 
peaceful and prosperous future for their country. We expect that there 
will be a limited opportunity for peace to take root in Nepal. 
Expectations are very high. It is imperative that we use available 
assistance funding to get visible evidence of development projects up 
and running as quickly as possible in rural areas where government has 
been virtually absent for years.
    Our significant assistance program for Nepal was recently updated 
to focus on democracy, governance, and conflict mitigation programs. 
Our development and economic assistance is already meeting some acute 
needs of the Nepalese people and their new government. In fiscal year 
2006 alone, U.S. assistance is strengthening the Election Commission, 
Peace Secretariat, National Human Rights Commission, and corruption 
ombudsman; broadening participation in political parties and making 
them internally more democratic, thereby increasing public 
participation in the democratic process; and supporting the work of the 
United Nations Office of the High Commissioner for Human Rights.
    We are exploring ways, depending on available resources and the 
evolution of the peace process and political situation, to strengthen 
democracy and the protection of human rights in Nepal, and to help the 
government deliver services to the people. We have a team in Nepal this 
week to assess where our assistance would have the greatest immediate 
impact. Areas in which we feel we can make a positive difference 
include strengthening political parties, expanding rural projects, 
providing technical assistance and equipment to the Parliament and to a 
constitutional reform process, assisting reintegration of internally 
displaced persons, and supporting elections. We also stand ready to 
provide assistance to security forces if requested by the new 
government; I told Prime Minister Koirala the same when I met him on 
May 2. This offer includes a commitment to continue training programs 
that improve the human rights record of Nepalese security forces. We 
also support the new government's efforts to bring peace to Nepal after 
a decade of devastating internal conflict that has cost over 13,000 
lives and untold suffering.
    Following the King's seizure of civilian authority, his 
estrangement from the political parties led the parties to seek a 
rapprochement with Nepal's Maoist insurgents, based on their mutual 
rejection of the King's power grab. This rapprochement, and the 
negotiations that accompanied it, resulted in a ``12-Point 
Understanding'' between the parties and the Maoists that continues to 
serve as a roadmap for relations between them. The key element of this 
understanding is a commitment by the parties (now the government) to 
support elections to a constituent assembly charged with drafting a new 
constitution--a longstanding Maoist demand--in exchange for Maoist 
commitment to support multi-party democracy.
    This new relationship between the parties and the Maoists has led 
to important progress toward peace, including the current reciprocal 
cease-fire, but their engagement is not without serious risks. We and 
many in Nepal and in the international community remain wary of Maoist 
intentions. They instigated a brutal insurgency and are responsible for 
countless human rights abuses. To date, they have not renounced 
violence nor have they agreed to disarm; their rhetoric remains 
belligerent, including against the United States. Despite stated Maoist 
commitments to the cease-fire and to multiparty democracy writ large, 
Maoist human rights abuses, including kidnappings and extortion, 
continue. It is important to remember that the Maoists took up arms in 
1996 against an elected government and multiparty democracy.
    We hope that the Maoists' commitment to peace and multiparty 
democracy is genuine. However, based on their track record they have 
not earned the benefit of the doubt. They need to be judged by their 
actions. If they renounce violence and respect human rights, there is a 
place for them in Nepal's political arena. However, until they take 
those steps and take them irrevocably, we along with many others in 
Nepal and elsewhere will not be convinced that they have abandoned 
their stated goal of establishing a one-party, authoritarian state.
    The international community has an important role to play in 
ensuring Nepal's democratic gains are lasting. As I mentioned earlier, 
we have already taken steps to focus our assistance program on 
strengthening democracy and governance, as well as the protection of 
human rights. We hope that other donor governments, some of which 
withdrew or reduced assistance during the period of royal misrule or 
usurpation of power, will also focus on strengthening capacity for 
democratic governance as they evaluate how best to support Nepal. We 
look forward to working with international partners to help support the 
people of Nepal in their quest for a brighter future. Among those 
partners, India has a key role to play. The ties that bind India and 
Nepal--economic, cultural, historical--are as strong as those between 
any two countries. Those ties mean that the two countries are deeply 
vested in each other's success and are intimately familiar with each 
other. For these reasons, we place high priority on consulting closely 
with India on Nepal policy.
    We took note of the May 12 arrests of five people who served as 
ministers in the King's cabinet. The integrity of a justice process is 
determined by its transparency and grounding in the rule of law, so the 
government should take care to ensure those principles are followed to 
the utmost.
    Nepal's future is in the hands of its people and its political 
leaders must take steps to meet the people's aspirations. We have no 
interest in prescribing the architecture of their democracy. The United 
States stands behind the people's right to make that choice themselves 
through a free and fair political process, and will stand against any 
who attempt to deny them the freedom that is their right.
    Thank you for this opportunity to appear before you. I would be 
happy to take your questions.

    The Chairman. Thank you very much. In your prepared 
statement, on page 2, you say that ``Following the King's 
seizure of civilian authority, his estrangement from the 
political parties led the parties to seek a rapprochement with 
Nepal's Maoist insurgents, based on their mutual rejection of 
the King's power grab.'' Has that changed now, with the events 
in the last few days?
    Ambassador Boucher. It has not changed, essentially because 
what happened is the King's usurpation of power pushed the 
political parties and the Maoist's together. They came up with 
this 12-point plan. The political parties are now delivering on 
the promises of the 12-point plan. Some of the steps that they 
have announced are very consistent with what they said they 
would do in the 12-point plan. I think all of us are calling on 
the Maoists, who signed up as well, to respect that plan and to 
adopt a political agenda and to abandon violence. So, to the 
extent that the King is no longer running things, the political 
parties are--yeah, the situation has shifted but in terms of 
the agenda that the political parties set, and that the Maoists 
signed up to with them, that is the agenda that is being 
carried out now.
    The Chairman. So, it seemed as though before the power grab 
the Maoist power was lessened and after that event--that the 
power increased of the insurgents.
    Ambassador Boucher. I suppose to some extent that is true 
because by seizing power the King sort of solidified some of 
the opposition against him.
    The Chairman. Right.
    Ambassador Boucher. But on the other hand, I would say that 
it was channeled in a political direction and that essentially, 
our fundamental goal with the Maoists, is for them to channel 
any of their positions and objections in a political direction 
and to abandon the violence. So, the fact that they signed up 
for a 12-point program and now have at least verbally committed 
to a cease-fire is important. What is even more important is 
making sure that they actually carry out those commitments and 
that is a job for the political leaders in Nepal, for the 
people of Nepal, for the international community, and other 
friends of Nepal.
    The Chairman. When you talk about the international 
community, you were there how recently?
    Ambassador Boucher. It was about 2 weeks ago, really.
    The Chairman. And what presence of the international 
community do you really see that are actively involved?
    Ambassador Boucher. This was a few days after the 
restoration of power. We met with the Prime Minister. We met 
with the political leaders. They were in the process of forming 
the cabinet. They had the first few names forward. They had not 
voted on them yet. So it was an early stage.
    There is, I think, a lot of international interest. I have 
talked about Nepal with a number of other governments. The 
Indians, of course, have been strong players in this 
throughout--remain very interested and we are talking to them 
all the time, coordinating with them and their ambassador in 
Nepal, our ambassador in Nepal. British and a few others really 
do coordinate very well on the ground. I think there is a 
broader international community that is interested in Nepal. We 
have had contacts from the Chinese for example, had some 
discussions with them that will continue. I expect we will be 
talking to Canadians, Europeans, and others.
    One of the key points I think that I made in my statement 
and that the Finance Minister made to the donors yesterday was 
that many countries, because of the King's usurpation of power, 
had held back on aid programs. Well, it is time to move that 
money forward and those programs forward now to really show 
some visible progress. We are committed to doing that ourselves 
but we are going to encourage the other governments to do it as 
well.
    The Chairman. What is the extent of the Chinese interest?
    Ambassador Boucher. I think the Chinese have been 
interested, first of all in stability. They are as anti-Maoist 
as anybody is in this situation. They are looking for 
stability. They are looking for a restoration of the political 
process. Really, in our discussions with them, we have pretty 
much agreed on all the basic points that we have put forward.
    The Chairman. There is a good line, the Chinese are as 
anti-Maoist as anybody.
    Ambassador Boucher. In this circumstance, I said. I didn't 
want to make it a general rule. They might differ with that.
    The Chairman. Do they have any influence over the group 
that has taken the name?
    Ambassador Boucher. I don't think so. I see precious 
little--no contact and no influence. Just based on what I know, 
the history of Chinese Communist politics. I imagine the 
Maoist's think these people are revisionists and have abandoned 
the cause and wouldn't listen to them very much anyway.
    The Chairman. One last question. In your prepared testimony 
you stated, ``We also stand ready to provide assistance to 
security forces if requested by the new government.'' Could you 
elaborate on that to what extent we could provide assistance?
    Ambassador Boucher. It is an important point, sir. I am 
glad you raised it. It is worth talking about a little more. I 
think first thing to say is we did meet with the Chief of Army 
Staff when we were in Nepal and we have maintained regular 
contact with the army, although we had suspended our lethal 
assistance during the period that the King took power. So, we 
first of all heard from him that he very much supports the 
Democratic process, the Chief of Army Staff; the army supports 
the Democratic process. The army supports the political process 
and even went to the extraordinary length of appearing on CNN 
to say that, to make sure that everybody knew it. They have met 
with political leaders to commit themselves to support the new 
Prime Minister and new Government.
    One of the steps taken today by the Parliament was to make 
them the Nepalese Army and not the Royal Nepal Army. To make 
clear that they did owe their allegiance to the Parliament and 
the political process. So, those are all good steps forward. 
They are all pledged to work together. We made clear that we 
will continue to work with the army. We have in the past 
provided some equipment. We have provided a lot of training. I 
think we have always provided professional training, human 
rights training, ways to make them not only more effective but 
more respectful of the people of Nepal and able to carry out 
their job in a way that is politically effective as well as 
militarily effective. So, we are prepared to do that again as 
soon as the civilian leaders tell us it is appropriate and it 
is time. Of course, we will listen to them as they tell us what 
they think is needed.
    The Chairman. I will follow up, you say not until civilian 
control? Did I hear you right?
    Ambassador Boucher. Not until the civilian leaders tell us 
what they want for the army, what kind of support they would 
like.
    The Chairman. Very good, sir. If I have other questions for 
the record I will submit them and keep the time open for a 
number of days.
    Ambassador Boucher. Very good. We are glad to answer any 
questions you might have, sir.
    The Chairman. Thank you. Let's hope the stability 
continues. I will welcome the second panel.
    Ambassador Boucher. Thank you.
    The Chairman. Welcome, Mr. Norris, Mr. Zia-Zarifi, and Mr. 
Thapa. Welcome. Let's start with Mr. Thapa.

STATEMENT OF DEEPAK THAPA, WILLIAM P. FULLER FELLOW IN CONFLICT 
RESOLUTION, THE ASIA FOUNDATION, COLUMBIA UNIVERSITY, NEW YORK, 
                               NY

    Mr. Thapa. Thank you, Mr. Chairman. I would like to enter 
my written testimony for the record also.
    The Chairman. Without objection.
    Mr. Thapa. Ah, which I will summarize briefly. Since April 
24, when the Seven Party Alliance let government--took power--
the country seems to be moving slowly and surely to its peace. 
The most positive indication is the Parliament's support. That 
was received unanimously for an election to a constituent 
assembly to write a new constitution, which has been the 
fundamental demand of the Maoists in order to join mainstream 
politics.
    There are various questions still open. The question of 
what do you do with two armies? And of course, the question of 
whether the Maoists are committed to a peace process or not? 
But, if you look at the events and the statements coming from 
the past 2 years or more, it has been very clear that the 
Maoists are in favor of joining mainstream politics. This is 
motivated partly by the realization that military victory is 
not possible from their side. They have also argued that 
perhaps it is not desirable in the current situation where a 
Communist-led government that comes to part through evolution 
would not be palatable to the international community.
    They have also said that Nepal is not yet ready for such a 
revolution, that it has to undergo ``bourgeois revolution'' 
before a ``people's revolution'' can take place. As a result of 
which in November of 2005, the Maoists and the political 
parties that represent 90 percent of their present Parliament 
committed to an understanding whereby the Maoists would join 
mainstream politics and the political parties would agree to an 
election to a constituent assembly.
    All this leads to a question of the monarchy. The major 
political parties that are part of the alliance have already 
amended their own party constitutions to keep the possibility 
of Nepal becoming a Republic open. But there are certain 
elements within the political parties also, which would argue 
against getting rid of the monarchy. The main argument is that 
the monarchy stands as a symbol of unity for Nepal. But there 
are others who argued that is not the reality that has been 
used often in the past, but then the Nepali King does not 
really identify with the Nepali people. To give an example, he 
represents the high caste oppressor for the low caste people. 
For the non-Hindu groups, he is the champion of the Hindu's. 
And for the plains people, he is the hills-based exploiter. So, 
there are a lot of people in Nepal who do not actually identify 
with the idea of a monarchy. But one also should remember that 
in the past 2 years a term that has become very familiar and 
very popular and has been widely accepted--that is the Nepali 
term for democracy itself. Earlier it used to be called 
prajatantra, which meant a rule by the subjects. That has been 
discarded in favor of loktantra, which means rule by the 
people. And that having been accepted, one would say that there 
is a great deal of sentiment against the monarchy at the 
moment. Together with the question of the monarchy is the 
question of the army. As I was just about to mention, the 
resolution has been tabled in Parliament to change the name of 
the army from the Royal Nepali Army to the Nepali Army only. 
And there are indications that these army brass will be willing 
to follow similar orders. That can only happen so long as the 
army palace links are cut off.
    But that would also hinge a lot on how the Seven Party 
Alliance is able to deliver on the promises they have committed 
to the Maoists and to the people at-large in addressing the 
various causes of the violence that has led to the Maoists 
justifying the insurgency in the first place.
    Which leads to the question of how is the SPA or the Seven 
Party Alliance planning to reach their objective? Although they 
agreed to a constituent assembly in November, for the past 5 
months there has been new debate within the Seven Party 
Alliance on how an election to a constituent assembly is going 
to be held. What it will entail and so on. Now these 
discussions are taking place and we are going to see a period 
of turmoil in Nepal. This time hopefully, it will be a peaceful 
turmoil, but then there are various groups that--there are 
various forces that have been unleashed by the people or the 
Maoists and the gradual political consciousness that has 
doubled up among the marginal list groups also.
    So the challenge before the parties and the Maoists, should 
they join the government which we hope will happen soon, will 
be how do they address their own political concerns with the 
concerns of the marginal list groups of whom there are quite a 
few in number?
    At the moment, on the question of the rule of the United 
States, I think the first thing is that the United States 
should be willing to accept the possibility that a constituent 
assembly might vote out the monarchy. Whether that will happen 
or not is of course, yet to be seen. But the other thing is 
that the Maoists are very suspicious, still very suspicious of 
the United States' intentions. There have already been 
statements from the Maoists leadership that the United States 
is preparing to rearm--resume delivery of arms supplies to the 
Nepali Army. Now whether that is really true or not, that is 
not the question. But it expresses their view of the United 
States.
    In 2003, when the second round of peace talks were going 
on, the United States and Nepal signed an antiterrorism 
assistance deal and that was used by the Maoists to rally 
around the troops, saying that the United States is for 
breaking the cease-fire and to instigate the Nepali Army to 
begin operations again.
    So, at the moment it would be very useful for the Nepali 
people and the peace process for the United States to take a 
backseat. The United States also has considerable influence 
over the Nepali Army, primarily because most of the generals 
have been trained here at some time or the other, so there are 
very close personal links that the U.S. Army, as an 
institution, has with the Nepali generals. And that could be 
used--those links could be used to persuade the Nepali Army 
generals to accept civilian supremacy of the army.
    The other way that the United States could play a role is 
by allowing or creating a space for the United Nations to 
become more involved. There is a possibility of something of 
that kind happening, especially given the recent visit of the 
U.N. to Nepal.
    The U.N. is a much-respected organization in Nepal. The 
Maoists have been demanding, ever since 2003, when the last 
peace process broke down that the U.N. be involved in some way 
or the other in future rounds of negotiations. There is concern 
that even involvement might legitimize the Maoists, but the 
Maoists have already been legitimized by the Seven Party 
Alliance and by the people of Nepal as a legitimate political 
player and that fact has to be taken into consideration.
    The other great fear is that whether the Maoists will 
accept an election to a constituent assembly. I am sorry the 
result of a constituent assembly--which might go against them 
and their agenda. But the Maoists are also aware that the 
international opinion will go against them, should they back 
out of talks. There is every possibility that the Maoists will 
accept the results of a constituent assembly. That comes from 
the dealings that the political party leaders have had with the 
Maoists and by the various representatives of civil society who 
dealt with the Maoists and see that they are really committed 
to change this time. Thank you very much.
    [The prepared statement of Mr. Thapa follows:]

    Prepared Statement of Deepak Thapa, William P. Fuller Fellow in 
  Conflict Resolution, The Asia Foundation, Columbia University, New 
                                York, NY

    Following 19 days of nationwide protests in April 2006, King 
Gyanendra gave in to the core demand of the Seven Party Alliance (SPA) 
to revive the House of Representatives dissolved in May 2002. Events 
since the capitulation of the monarchy on April 24 in favor of an SPA-
led government seem to be moving the country slowly but surely toward 
peace. The unanimous parliamentary support for an election to a 
constituent assembly to write a new constitution is the most potent 
indicator of this. The number of imponderables remains large, most 
notably the question of the two armed groups, the Nepali Army and the 
Maoist guerrillas. Equally pertinent is whether the Communist Party of 
Nepal (Maoist) is genuinely willing to talk peace and give up arms, 
especially since their protagonists now are the same political parties 
they had been pitted against until recently.
    Maoist statements for the past 2 years have indicated that they are 
in favor of a negotiated settlement, albeit partly on their terms. This 
reflects a realization that a military victory is not possible from 
their side, and perhaps not desirable as well. Maoist leaders have 
justified their changed stance to the existing global situation which 
they have said is not in favor of a communist revolution. They have 
also said that neither is the country ready for it, arguing that Nepal 
needs to undergo a ``bourgeois revolution'' before it is ready for a 
``people's revolution,'' and the latter can be pursued through peaceful 
means. As a result, the Maoists committed themselves to multiparty 
democracy under the 12-point agreement with the SPA in November 2005.
    The pronouncements from the Maoists since the SPA took power do not 
show any change in their position. Although the statements have 
sometimes been quite harsh in their assessment of the government's 
performance, the manner in which the SPA has systematically acted on 
the 12-point agreement does not leave much room for complaint. There 
have been reports that the Maoists are still indulging in violence and 
continuing with the forcible collection of ``donations.'' But these are 
so far isolated incidents that need to be brought under check but are 
not necessarily serious enough to cause concern, at least not yet. The 
burden now seems on the SPA to create the conditions for a meaningful 
dialog with the Maoists and this will include both ensuring that the 
army is brought totally under its control and seeing that the king is 
thoroughly disempowered.
    The present situation gives much room for optimism compared to the 
time at the height of the street demonstrations when there were worries 
that the crowds would snowball out of control and make a run for the 
palace. The Maoists were certainly banking on such a possibility and, 
considering the intensity of sentiments against the king and the crown 
prince among the younger generation of Nepalis, even without the Maoist 
agents provocateur in the crowds, the protestors may have done 
precisely that. The fear was that such a move would either result in a 
massacre on the streets with the army standing firm in its support for 
the monarchy, or it would lead to the hurried exit of the king from the 
country. The first would have been tragic while the latter could have 
led to a power vacuum in the country since it was not at all certain 
that the SPA could have stepped in to take the reins of government. On 
the Maoist side, regardless of their understanding with the SPA, they 
would surely have made a move. What the role of the army would have 
been is anyone's guess, but there was a possibility that the transition 
would have been quite violent. Fortunately, the king realized (or was 
impressed upon) that his position was untenable, for not only was he 
putting the future of his throne at stake but the future of the whole 
country as well.
    King Gyanendra's revival of parliament and handing over power to 
the SPA has forestalled all those scenarios. The SPA has taken control 
and remains committed to its ``roadmap'' to a peaceful Nepal. However, 
the question of the monarchy remains to be tackled. All the major 
political parties have amended their own constitutions to leave open 
the possibility of Nepal becoming a republic although it was partly 
driven by bluster to prod the king along toward meeting their demands.
    Powerful elements within the Nepali Congress and its splinter 
Nepali Congress (Democratic) still cannot envisage Nepal without a 
king. These parties cling to the overused and outdated notion that the 
institution of the monarchy holds the multiethnic, multilingual, 
multireligious country together. The bogey of state fragmentation is 
held up to argue for the continuation of the monarchy. But this ignores 
the reality that the Nepali monarchy is linked with only a small 
section of Nepali society and his identification with the vast majority 
of the people is maintained by dispensing patronage to a handful of 
clients from the various regions and population groups in the country. 
For the rest of the people, he represents a state that has historically 
trodden heavily on the aspirations of various population groups: for 
the ``low caste,'' the king embodies the ``high caste'' oppressor; for 
the non-Hindu groups, he is the champion of Hinduism; for the plains 
people, he is the hills-based exploiter. Thus, there is growing 
consensus that reforming the old order may be impossible so long as the 
monarchy with all its tradition-bound trappings continue to exist in 
its present form. That explains to a large extent the sudden 
countrywide popularity and acceptance of a new term for ``democracy,'' 
loktantra, rule of the people, in place of prajatantra, rule of the 
subjects. In that sense, the people have spoken and even should a 
monarchy continue into the future, it can only be in a totally 
emasculated form. Given the record of the monarchy in modern Nepal and 
its role in undermining democratic politics time and again, the 
stability of the country will in large measure depend on such an 
eventuality.
    Tied to the fate of the monarchy is the issue of civilian control 
over the army. The potential for royal mischief remains ever-present so 
long as the army brass is beholden to the palace for their careers. 
Direct civilian control of the army will thus reduce the likelihood 
that the king can use the military to his personal ends. But it is also 
true that the institutional loyalty of the army toward the king has 
partly to do with the failure of the political leadership to inspire 
confidence. That is the challenge before the SPA: To lead the country 
out of the morass of violence by engaging the Maoists in negotiations 
and together create a just political order that will address the ``root 
causes'' that provided moral justification to the Maoists' rebellion in 
the first place. In such a scenario, the army should easily slip into 
the role assigned to it although a great deal of institutional 
modifications will be necessary within the army itself such as 
including the nearly 50 percent of the population who are not recruited 
into the army; professionalization of the force by introducing a system 
of strict meritocracy; ridding the army of feudal throwbacks like the 
use of courtly language, etc.
    A major shortcoming with the SPA has been that despite their stated 
commitment to elections to a constituent assembly, they had not begun 
any preparatory work on creating an understanding among themselves or 
with the Maoists on how that objective was to be fulfilled. That 
process has only just begun and it will be a feat to pull it off 
anytime soon, especially since the stakeholders to discussions now 
involve more than just the political parties and the Maoists. Different 
social, regional, linguistic, and religious groups will lobby to have 
their concerns recognized and although all the political forces have, 
at least in spirit, declared themselves in favor of recognition of all 
forms of minority rights, balancing all the aspirations will prove 
immensely challenging.
    The main role that the United States can play in helping a peaceful 
transition is mainly by staying on the sidelines and letting the 
process unfold by itself, and that includes accepting the possibility 
of the constituent assembly voting out the monarchy. There is a great 
deal of suspicion among the Maoists that the United States is preparing 
to resume aid to the Nepali Army, and regardless of the veracity of the 
source of such misgivings so long as there are credible efforts by both 
sides to find a peaceful solution a much less visible role of the 
United States would be desirable. The Nepali Army and the Maoists have 
to initiate confidence-building measures and for the first time in 10 
years it is actually possible given the SPA-Maoist understanding. The 
Maoists made much of the Anti-Terrorism Assistance (ATA) deal signed 
between Nepal and the United States while peace talks were starting in 
2003, and which came around the time the Maoists were designated a 
terrorist organization by the United States. Such actions are best 
avoided this time around as negotiations proceed. In any case, the 
Maoists are certainly aware that if they walk out of talks the whole 
might of international opinion will be against them and will be backed 
by resumption of heavy military aid to the Nepali Army, particularly 
from India.
    The United States could also use its considerable influence with 
the Nepali Army to ensure compliance with civilian orders. Almost all 
the generals have received some form of training or the other in the 
United States (not to mention that the children of many generals study 
or live in the United States) and such training is viewed as an 
attractive perk in an officer's career. Thus the United States has 
unique leverage to gently persuade the army brass to accept the 
principle of civilian supremacy.
    At the same time, the United States, in conjunction with India and 
other countries, could help the United Nations create a space for 
itself during the peace process in Nepal. The Maoists have been 
insisting on a U.N. role in peace talks almost from the time the second 
round of peace talks broke down in August 2003, indicating their lack 
of faith in the government to negotiate in good faith (although the 
situation has changed dramatically since then with the SPA now in 
power). While there may be concern that U.N. involvement may legitimize 
the Maoists, the fact remains that the Maoists have already been 
accepted as a legitimate political force by the SPA and the Nepali 
people at-large and that fact has to be taken into consideration.
    Politicians and civil society leaders who have interacted with the 
Maoists believe that the Maoists are genuinely committed to the 12-
point understanding, and the recent actions by the SPA government in 
steering the country toward the realization of that agreement, 
including the soon-expected parliamentary declaration drastically 
clipping the king's powers, harbors well for the future. A nagging fear 
is whether the Maoists will accept an election result that goes against 
them even though they have time and again expressed their willingness 
to abide by the people's verdict. Opinion polls have consistently shown 
popular support for the Maoists to be around the 15 percent or less 
range. That could change with them politicking above ground and they 
certainly can take credit for the proposed restructuring of the state. 
But it should also be noted that changed circumstances could lead to 
newer political entities such as ethnic and regional forces playing a 
key role in the country's politics in the future. For the moment, 
however, the best prospect the country has for a peaceful mainstreaming 
of the Maoists is for the political process to continue as it has for 
the past few weeks, and, in effect, allowing the SPA to call the 
Maoists' bluff about their own commitment to the 12-point 
understanding.

    The Chairman. Thank you very much.
    Mr. Zia-Zarifi.

  STATEMENT OF SAM ZIA-ZARIFI, RESEARCH DIRECTOR OF THE ASIA 
           PROGRAM, HUMAN RIGHTS WATCH, NEW YORK, NY

    Mr. Zia-Zarifi. Thank you very much, sir, for having us 
here. You have heard some macro-level analysis. Myself and 
Human Rights Watch are mostly known for providing on-the-ground 
analysis. I just returned a few weeks ago from Nepal. It was my 
third trip there since February for its takeover. I was there 
just a few days after the takeover. So, what we do is mostly 
talk to the people. I would just like to convey some of what we 
found on the ground. I would like to ask that my longer 
statement be submitted into the record.
    Mr. Chairman. Without objection.
    Mr. Zia-Zarifi. And if it is okay, I will try to keep it 
short and see if there are some things that are unclear. It is 
a historic moment but it is also one that is wrought with 
danger. On February 1, the King created two human rights 
crises, where before there was one. The Civil War, which had 
killed at that point about 12,000 people, resulted in hundreds 
of disappearances, unfortunately the majority of them at the 
hands of the government itself.
    A few weeks ago, the one part of this was resolved with the 
return of people power. This was really a glorious moment in 
Nepali politics and I think for the world. I think we should be 
really very proud of the people of Nepal and what these 
impoverished beleaguered people have shown. There is now the 
possibility to resolve both conflicts. I think the United 
States--I think the U.S. Congress certainly can pat itself on 
its back for having said the right things and done the right 
things for the--especially since the February 1 takeover--the 
imposition of an arms embargo. I think that was a very 
important move. I think we saw on the ground, sir, that the 
lack of heavy weaponry saved thousands of lives. I think we 
would have seen far higher numbers of people killed if there 
were arms flowing into their country.
    But the question is what should the United States do now? I 
think my easy answer is that the United States should try to 
help where it can and try not to hinder for any reason the 
process that has been started if the people of Nepal want it. 
So, in three simple steps I would say support the Nepali 
people; continue to provide the basic support to the people of 
Nepal that may address some of the deep, deep social problems 
that lead to the conflict in the first place. And just as 
important make sure that the two sides of the conflict behave 
going forward. That really means the Maoists and the Royal 
Nepali Army or the Nepali Army as it may soon be called.
    I would just like to also note my slight disappointment 
that there is no one here from the Department of Defense. They 
have quite a bit to say about what is going on, I think, in 
Nepal. It is unfortunate that we are not able to hear what they 
have to say.
    Let me sir, put out just four quick suggestions I have for 
U.S. policy going forward. The first, and under the category of 
supporting the people, is to provide technical and political 
assistance to the constituent assembly process. It is going to 
be tough technically just simply getting ballot boxes out in a 
very tough mountainous country. The United States has 
experience with this. We should make it available if the Nepali 
people want it. It also means putting pressure on both the army 
and the Maoists to see that there is a real political process. 
The Maoists in their areas have managed to completely quash all 
political activity by non-Maoists groups. I think it will be a 
good sign of their intentions to see if they will allow the 
journalists of Nepal and the political parties of Nepal to 
operate in their areas. I think the United States can continue 
to provide this kind of support.
    Along with that, the United States has to deal with the 
RNA. The RNA, sir, was mostly a ceremonial force until about 4 
or 5 years ago. It has grown by four, five times in that 
period. It has quickly established itself as one of the worlds 
more abusive armed forces. It has been responsible for most of 
those killed in Nepal. It has been responsible for hundreds of 
disappearances. It has made attempts to circumvent the rule of 
law and the will of the people of Nepal. It is not a good 
partner for the United States, certainly not for the United 
States military.
    So, absolutely we should continue this suspension of lethal 
aid and military assistance to the Nepali Army, until the 
government--the Democratic, legitimate government asks for it 
and until we see that the problems of the RNA have been 
resolved. One important question for the people of Nepal, over 
and over again is the question of accountability. Hundreds of 
people are still missing. People were taken by the Nepali Army. 
We need to see some information about what happened to these 
people. We need to see some real accountability about the 
various serious human rights abuses committed by the Nepali 
Army. It is unfortunate that to some extent the United States 
was seen as believing the Nepali Army's efforts to cast itself 
as being a reformed force. We took a look at their own--of 
their own record over the last 4 or 5 years. They have had 97 
cases, sir, of what they considered abuses. The majority of 
those were drunk and disorderly abuses. We saw mostly, even in 
cases of serious crime such as murder, such as rape of young 
girls, the Nepali Army just fail to have any accountability. We 
need to continue that pressure. We need to help the Nepali Army 
professionalize. I would suggest two specific areas, if the 
U.S. Department of Defense is anxious to help. Help the 
Ministry of Defense. The current Nepali Ministry of Defense is 
essentially--it has been described as a mail drop for the 
military. We need to help professionalize that ministry. We 
need to make sure that the Nepali Army stops using vigilantes.
    To help the conflict, we should just make sure, sir, that I 
think the United States does not stand in the way of the 
resolution of the peace process, if it is going the way the 
Nepali people want it. They are the ones who have suffered. We 
saw the terror in their eyes as the bullets were whizzing by 
and I think we should allow this process to continue while 
giving support for the most important factor, which is probably 
monitoring. I think the Nepali Human Rights Commission can be 
useful in this regard. The U.N. may be useful but I have to say 
that in the U.N. Human Rights Mission, Nepal performed a very 
valuable function the last year but it can't act as a cease-
fire or a peace process monitor. I think the United States 
should be able to help whatever monitoring system is set up 
there.
    Dealing with the Maoists, their abuses have continued, 
unfortunately. The United States should treat the Maoists as 
perhaps as a legitimate force, legitimated by the Nepali people 
at this point, but a legitimate force with a very bad record. I 
think we know this is what diplomacy is all about and not how 
you handle your friends but how you handle people that you 
don't necessarily really like. I think, in this case, the 
United States should continue to address the Maoists by seeing 
how they behave. I will set out one, quick, easy, first test 
for the Nepali's, if there is a peace process, sir, that seems 
to be holding. We would like to see the Nepali Maoists 
decommission the thousands of children that they use among 
their combat troops. It is a gross violation of human rights. 
It is a terrible tragedy for the people of Nepal. There is 
absolutely no reason for it. We would like to see the Nepali 
Maoists let those children go back to their homes. We would 
also like to see the United States help the Nepali Government 
help those children return. As it is, there is absolutely no 
way--the new Nepali Government just has no policy nor capacity 
to help these children.
    Finally, sir, on the issue of aid, as you heard from 
Ambassador Boucher, there are questions about whether the 
United States is going to ramp up aid or how it is going to 
continue. This goes to the question of addressing the basic 
problems of Nepal. Let me just suggest a couple of things. One 
is that we have to make sure, based on our own bilateral aid 
and our position on the IFI's, that aid that goes to Nepal is 
accountable and transparent. For that you need the journalists, 
you need the human rights groups to be able to see what is 
happening with aid. There has to be soliciting of their opinion 
about how aid projects have progressed.
    Finally, there are some good targets for bilateral aid, I 
think--the National Human Rights Commission. It needs to be 
cleaned up a little bit but it's still a pretty good outfit and 
it has done some good work. It could use U.S. support. The 
Nepali Judiciary could absolutely use United States support and 
training as does the Anticorruption Commission. These are all 
national-level bodies. The United States has the experience. I 
think helping these bodies will demonstrate to the Nepali 
people, to the world, that the United States is happy to 
support people when they demand their rights and their voice. I 
can tell you from the people that we met when we were in Nepal 
over the past few months, sir, that the United States has made 
some missteps but it has also done some things right. I think 
there is a lot of goodwill there that the United States can 
still tap into. Thank you very much.
    [The prepared statement of Sam Zia-Zarifi follows:]

  Prepared Statement of Sam Zia-Zarifi, Research Director of the Asia 
               Program, Human Rights Watch, New York, NY

    Thank you, Senator, for the opportunity to testify about Nepal at 
this historic moment. I also want to thank you on behalf of a Nepali 
woman I met in March of this year in the remote mountains of western 
Nepal. Her name is Mallika, and she lives in a small village of maybe 
15 families. Mallika did not say much when I met her, just 2 days after 
her village had been caught in a fierce firefight between Maoist 
insurgents and government forces. Armed men had fought in and around 
the huts, mortars were fired, blood was shed, a helicopter landed 
practically on top of her house and disgorged heavily armed troops. 
When we tried to interview her, she could not handle the memory of it 
all; her voice quavered, her eyes rolled back, she began twitching and 
she fainted. I have worked in a number of terrible places, and I have 
never seen an adult pass out from pure terror, and it left an 
impression on me. What our Human Rights Watch team saw in 3 weeks of 
traveling through Nepal was that the people of Nepal feared an 
increasingly nasty conflict that was literally bursting through their 
doors.
    But Mallika was alive. And for that, I believe, she partly has to 
thank the United States Congress, which imposed human rights-related 
restrictions on lethal military assistance to the Nepali military, and 
thus limited the availability of heavy weaponry to both sides of the 
conflict. The United States, along with Nepal's other main military 
supporters, wisely decided to limit the flow of arms to this conflict, 
and thus saved innumerable lives. Mallika and her neighbors were 
alive--terrified, but alive--because Nepal's 10-year-old civil war is 
largely a poor man's war, fought with aging and relatively light 
weapons. Had we seen AK47 or M-16 assault rifles, or, worse, advanced 
artillery and helicopter gunships in this conflict, we would now be 
speaking about casualty rates far higher than the 13,000 people already 
killed in this war. Most--about two-thirds--of those killed were 
victims of targeted or indiscriminate attacks and summary executions by 
the Royal Nepali Army (RNA). In recent years, the army has also been 
responsible for the highest number of new ``disappearances'' in the 
world--most of the victims are never seen again.
    The Maoists have also been responsible for many civilian deaths, 
and added to civilian casualties by repeatedly placing their forces in 
highly populated areas. They have murdered numerous local officials and 
alleged opponents to their cause, and engaged in widespread torture, 
intimidation, and extortion of people living in areas under their 
control. In many areas they forced every household to provide them with 
at least one person; where no adult was available, children, often 
girls, were forced to join the Maoist ranks.
    It was this awful and seemingly intractable conflict that provided 
the justification for King Gyanendra's takeover of all executive 
authority on February 1, 2005. He created another human rights crisis 
on top of the existing brutalities of war. He tried to shut down 
Nepal's fledgling but vibrant civil society, to silence political 
opposition, to shut down Nepal's brave journalists, and imprison 
students, party activists, and human rights defenders. He did all this 
with the support of the Royal Nepali Army, ostensibly to give the army 
the free hand it needed to defeat the Maoists.
    As you know, King Gyanendra failed in all respects. The Maoists 
gained ground, in real terms and in political terms--not because of 
their growing strength, but because the King was his own worst enemy. 
At the same time, Nepal's people found their voice, as never before, 
and a few weeks ago forced the King to give up his bid for absolute 
monarchy and acknowledge the sovereignty of the people. This was a 
genuine victory of ``people power,'' no less astonishing than the 
revolutions that swept away the Iron Curtain or removed dictatorships 
in the Philippines and Indonesia. The Seven Party Alliance (SPA) that 
opposed the King has taken over government, and it has pursued a policy 
of bringing the Maoists into the political fold, pursuant to the 12-
point agreement agreed upon by the parties, and established a mutual 
cease-fire with the Maoists.
    Mallika and millions of Nepalese are more hopeful about their 
futures today because of these events, but they are aware that they've 
merely stopped--for now--the slide toward the precipice. They are 
rightly anxious about inching away from disaster and eventually 
establishing a society firmly rooted in the will of the people and 
accountable to the people. The conflict was driven by longstanding 
human rights abuses, so the response also needs to address these 
abuses.
    The pressure brought to bear by the United States and other members 
of the international community was quite important in supporting this 
historic moment. I would like to highlight some human rights issues 
that should be of concern as you consider how the United States 
Government addresses Nepal in the future.
    First, the United States should help support a legitimate, 
representative civilian government:

  <bullet> Support the rule of law. Press the government to remove 
        draconian laws that violate fundamental due process, such as 
        the Public Safety Act and the Terrorism and Disruptive 
        Activities (Control and Punishment) Ordinance, better known by 
        its acronym, TADO. Both laws have been abused by successive 
        governments, including by the present SPA government, which has 
        used these laws to imprison five members of the King's cabinet 
        without proper charges or due process. At the same time, steps 
        have to be taken to address the status of hundreds of detainees 
        held under the Public Safety Act and TADO, many of whom are 
        held without adequate charges, but some of whom are suspected 
        of serious wrongdoing.
  <bullet> Support a successful constituent assembly. A genuinely 
        representative constituent assembly requires elections that 
        are, and are seen to be, fair and legitimate. This is not just 
        a question of technical matters, such as distributing
        ballots throughout Nepal's difficult terrain. It requires a 
        campaign of public education as well as monitoring to ensure 
        that people can express their opinions and cast their votes 
        free of intimidation. It requires the Maoists allowing real 
        political activity in areas under their control, and allowing 
        unfettered media access and operation. It means ensuring that 
        the Royal Nepali Army, and any of its associated vigilante 
        groups, do not interfere with the campaigning or voting 
        processes.
  <bullet> Support efforts to revise Nepal's constitution and legal 
        system in order to remove barriers against Nepal's marginalized 
        groups, in particular, castes. Governmental commissions 
        dedicated to improving the position of Dalits (so-called 
        untouchables) and women should be given constitutional status, 
        similar to the National Human Rights Commission. The United 
        States should support the National Human Rights Commission to 
        regain its independence and expand its capacity to monitor and 
        defend human rights across the country.
  <bullet> Support efforts to place the RNA under civilian authority. 
        Today Nepal's Parliament approved a resolution that strips the 
        King of his command of the RNA. The resolution will be voted on 
        as a series of laws in a few days. The RNA has shown through 
        its conduct that it is not a fit interlocutor with the 
        international community, and in particular the United States. 
        It has been responsible for widespread human rights abuses 
        during the conflict, including most of the ``disappearances,'' 
        and it has intruded in civilian government by supporting the 
        King's February 1 coup and by usurping administrative authority 
        in the provinces. The United States should not resume transfer 
        of lethal military materiel to the RNA until and unless a 
        legitimate civilian Nepali Government requests the aid and 
        until the RNA demonstrates that it is a disciplined, 
        accountable force. If the United States is interested in 
        providing any assistance to the military, we suggest it 
        concentrate on strengthening the Ministry of Defense's capacity 
        to provide real oversight and control over the uniformed 
        military. The Unified Command, through which the RNA controlled 
        the police force, should be dismantled, and police should 
        return to the job of policing and protecting the populace.

    Second, the United States should help support efforts to limit, and 
possibly end, the conflict:

  <bullet> Support efforts to monitor the cease-fire agreement between 
        the government and the Maoists. Currently, both sides have 
        declared a cease-fire, but similar pauses in the fighting in 
        the past have ended in bloody confrontations. Any cease-fire 
        should give the Nepali people a true respite. The presence of 
        U.N. human rights monitors has led to real improvements in the 
        behavior of both parties; there is every reason to believe that 
        a robust international monitoring presence will similarly 
        bolster the chances for real human rights improvements during a 
        cease-fire.
  <bullet> Support accountability for abuses committed in the context 
        of the conflict by both sides. There is precedent in Nepal for 
        an independent, high-level fact-finding commission; such a 
        commission should gather information about abuses by both 
        sides, and immediately begin the process of bringing to justice 
        those in the RNA responsible for human rights abuses, and 
        prepare for accountability for Maoist cadres. Despite rhetoric 
        to the contrary, the RNA has failed to impose serious 
        accountability for the serious violations such as extrajudicial 
        executions and ``disappearances.'' Just yesterday we saw large 
        demonstrations in Kathmandu calling for information about the 
        whereabouts of the ``disappeared,'' indicating the significance 
        with which the Nepali people view this problem. Furthermore, 
        address the impunity from prosecution troops have long had for 
        human rights abuses, and assist the reform of the military and 
        civilian justice systems.
  <bullet> In particular, support the immediate reintegration into 
        society of thousands of children currently serving as Maoist 
        cadres. The Maoists' use of child soldiers constitutes a 
        serious violation of international human rights. Human Rights 
        Watch interviewed several children recently conscripted by the 
        Maoists--some of them who had ``volunteered'' after being 
        subjected to years of propaganda, others forcibly taken under 
        the program of ``one household, one fighter,'' and some of them 
        simply kidnapped. Yet all these children were afraid to return 
        to their homes, afraid that they would be taken again, or 
        punished for failing (unclear what ``punished for failing'' 
        means). Sadly, the Government of Nepal has neither the policy 
        nor the facility for helping these children reintegrate into 
        civilian life.

    Third, the United States should help address the injustices and 
inequalities that have fueled the conflict. The Nepali civil war has 
been much more a result of real social fissures, not ethnic, religious, 
or regional grievances. Unless these problems are addressed, the 
discontent that fueled the conflict will remain. Bilateral donors and 
international financial institutions are now being requested by the 
Nepali Finance Ministry to provide budget support and resume full donor 
aid. Unless aid is programmed transparently and in a participatory 
manner, it will merely repeat the problems of the past and at worst, 
contribute to human rights violations. U.S. Treasury and State 
Department must coordinate so that United States representatives on the 
Boards of the IMF, Asian Development Bank, and World Bank prioritize a 
role for civil society, the media and other institutions in monitoring 
aid and budget support. U.S. bilateral aid and the IFIs should also 
support institutions that can contribute to human rights and 
accountability, such as the judiciary, the national Human Rights 
Commission, and the anticorruption commission. Human rights groups 
should be asked to monitor development projects to ensure that human 
rights violations do not impede access to services. Such monitoring did 
not occur in the past, leading agencies such as the World Bank to 
downplay the impact of the conflict and human rights situation on 
development in Nepal. In addition, the IFIs should prioritize a review 
of expenditures by the Nepali Government to ensure that there is proper 
oversight in future budget support. In its bilateral program and in its 
role with multilateral organizations, the United States should strive 
to include Dalit, ethnic, and women's groups in decision making for 
development programs.

    The Chairman. Thank you very much, Mr. Zia-Zarifi. It is 
good to see that the United States has some goodwill somewhere.
    Mr. Norris.

     STATEMENT OF JOHN NORRIS, WASHINGTON CHIEF OF STAFF, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Norris. Thank you, Mr. Chairman. I have submitted my 
longer testimony for the record. I would first of all like to 
compliment you for shining some light on this issue. I know 
that Nepal is a fairly small issue in Washington, but 
Washington's role in Nepal is a very big issue in Katmandu. I 
congratulate you for bringing this emphasis.
    I would like to look at both, very quickly, at where we 
have been and where I think we need to go in Nepal. I think, 
first and foremost, we shouldn't overestimate the amount of 
goodwill the United States enjoys in Nepal for a lot of 
Nepali's, political parties, activists, people that were out in 
the streets standing up fairly courageously, unarmed, taking 
the streets against an army, against a police force. Standing 
up against royal rule. A lot of Nepali's feel that they 
achieved the achievements of the last month despite the United 
States--not because of the United States. A lot of us were 
quite disappointed when on February 1 of last year, the State 
Department--the White House offered virtually no condemnation 
of the King's move to assure absolute authority in Nepal. The 
statements that were issued were very much pro forma. Our 
ambassador on the ground came out and condemned and called the 
agreement between the Maoists and the political parties, the 
12-point agreement, which has essentially served as a vehicle 
to get us where we are today, as wrongheaded and ill-informed.
    And even during the middle of the street protest, at the 
height of the protests, when the King offered a deal that I 
think almost everyone recognized as half-baked. Our diplomatic 
team rushed to encourage the parties to accept that deal, which 
I think rather wisely, they did not. So, I think we have to be 
realistic about how we are viewed on the ground, not just by 
the Maoists but by the political parties and other forces 
involved. I think Assistant Secretary Boucher has done an 
excellent job since assuming his post, and getting our position 
on better footing and establishing a much better tone. But I 
think as we look at how we will be involved in the future, we 
carry with us a certain burden of past involvement.
    In terms of where we go from here, I think it is important 
that we look at the practical steps, the practical things that 
need to be done in terms of implementing a very complicated 
peace deal and a very fragile peace deal.
    First of all, I think we really do need to test the peace. 
The Maoists have signaled that they are willing to accept a 
return to mainstream democracy and normal political life. As 
Deepak rightly pointed out, a lot of people are willing to 
accept that assertion, some people are not willing to accept 
that assertion. I would suggest the easiest way to reconcile 
those differences is to test the peace. To get cease-fire 
monitors on the ground quickly, to offer concrete steps in 
terms of getting people out in villages. Beginning talks about 
not only the cease-fire but the potential demobilization, 
disarmament of the forces in the field. I would disagree 
slightly with Sam. I think the current U.N. operation on the 
ground, the human rights team, has done an excellent job in the 
field and I think they may well be best positioned to assist a 
cease-fire monitoring and stand it up fairly rapidly. I was in 
Nepal in 2003 when the previous cease-fire disintegrated. In a 
large part it disintegrated simply out of mistrust and fear of 
the fact that there was no one on the ground to verify 
incidents when they occurred, to stand up between the warring 
parties, to issue reports and bring some clarification to what 
were local incidents but quickly snowballed out of control over 
time. I think United States, Indian, and U.K. support for a 
small cease-fire monitoring mission working in conjunction with 
a legitimate Government of Nepal would make a tremendous 
difference. There is every indication that the government will 
ask for our support in standing up this kind of operation, and 
I think it would be great assistance if the United States and 
the U.N. and other forces would be ready to go almost 
instantaneously if this was asked for.
    India's role, as far as this goes, is a sometimes 
controversial one and I think an important one to touch on. 
Some people have suggested that India would be unwilling to 
accept any kind of U.N. involvement in Nepal. I don't think 
that is quite accurate. We have seen India's support for the 
Human Rights Mission that is currently deployed. I think that 
has been important. I think India's main concern is to make 
sure that whatever U.N. presence is in Nepal, it is small, it 
is well-defined, and is brought in to do specific technical 
tasks and not inserted in a sweeping fashion that would impinge 
on the rights of Nepali's to make what are their legitimate 
political decisions. So, I think as we look at how the 
international community can best assist Nepal during this 
important time, it is important to focus on specific skills, 
carefully limit the task and offer expertise where we feel 
there is the greatest benefit.
    In terms of foreign assistance, I think the most important 
thing we can do is show Nepali's at the village level that 
there are benefits of peace. The people in the countryside have 
suffered tremendously in this conflict. The sooner that they 
can see employment opportunities, the sooner they have greater 
food security, the sooner they have more security in their 
normal lives, the sooner they can move about freely, the more 
likely peace is to take root and not slip back into war.
    I also think it is very important that we realize the 
difficulty that lies ahead. It would be very easy to look at 
the situation in Nepal and assume that victory has been assured 
because of the ``people's movement'' because of the very heroic 
and historic changes that have occurred in a very short period 
of time. But it is not a very complicated situation. We have a 
rather fragile coalition government, simultaneously trying to 
manage a 3-headed peace process involving the political 
parties, the army, and the monarchy, the Maoists. Trying to 
hold themselves together and trying to embark on an 
unprecedented and wholly unscripted process of major 
constitutional revisions and hold the first free and fair 
election in Nepal in some time. I think if you had the U.S. 
Government try to do all of those things at the same time here 
in the United States, it would be a little challenging. I think 
we would need to understand that the capacity of the acting 
government in Nepal is fairly constrained at this point. It 
makes it all the more important that the international 
community speak as one, think about its interventions, and 
offer real practical useful assistance where most useful.
    For example, this idea of the constituent assembly, it is 
almost Mantra in Nepal, but the political parties, even the 
Maoists haven't put a great deal of thought into how this will 
actually work. I think Sam rightly acknowledged, and Deepak as 
well, it is vital that we have enough security on the ground 
that there can be a normal political debate at the village 
level. We have got people who for the better part of the last 
decade have been intimidated and terrorized by the government, 
by the Maoists, and simply aren't comfortable talking about 
politics. We have politicians who every time they stuck their 
head up in a village, quickly became victims. And unless we can 
insure that there is that kind of freedom of expression and 
people can actively debate the ideas about what Nepal's 
Government should look like, how it should work, what the 
practical modalities of this should be, we will lose a historic 
opportunity for the people of Nepal to actually shape their 
constitution and end what has been a long and painful history 
of discrimination and exclusion that I think we would all like 
to move past.
    Last, in terms of a couple of other specific issues for the 
United States, it somewhat alludes me why the United States 
would be so eager to talk about resuming military assistance 
right now to the Government of Nepal, even if requested. When I 
look at a peace process, when I look at all the work that needs 
to be done, I am frankly baffled why resuming military 
assistance to a country that is desperately trying to cling to 
a peace deal makes any sense. I would much prefer to see U.S. 
assistance focus on helping political parties. Learn how to 
manage. Learn how to be efficient. Learn how to be transparent. 
I would rather see our generals lending a hand, not in 
providing arms, but in explaining to parliamentarians and 
military officers in Nepal how civilian oversight works. How 
does civilian parliament oversee a military budget? How do they 
look at appointments of senior military personnel? I think 
those kinds of practical, useful steps are much more important 
right now. And frankly, I think they do a lot to lower the 
temperature of all the parties involved.
    I think the greatest enemy of peace right now in Nepal will 
be delays. I think there will be bureaucratic snafus. I think 
there will be misunderstanding. I think there is a tremendous 
amount of work to be done. I am encouraged that people such as 
yourself are taking a hard look at it. Thank you.
    [The prepared statement of Mr. Norris follows:]

     Prepared Statement of John Norris, Washington Chief of Staff, 
               International Crisis Group, Washington, DC

    It is a pleasure to appear today to discuss the rapidly evolving 
situation in Nepal, and I would like to thank the Chairman for his 
interest in a topic that has often slipped below the radar screen for 
many in Congress and the public.
    Democracy and the people have spoken in Nepal. While I do not want 
to dwell on the specifics of how democracy came to be restored in 
Nepal, I do think there are a number of important lessons that we need 
to carry forward as we look at the immense challenges that lie ahead 
for Nepal and the international community in the search for a durable 
peace. First and foremost, for a U.S. perspective, we need to 
understand that for many Nepalese, democracy was seen as a hard won 
victory secured not because of American leadership, but despite 
American involvement.
    Right or wrong, United States diplomacy was seen as tilted heavily 
in favor of King Gyanendra, the Royal Nepalese Army, and a military 
solution to a Maoist insurgency that has claimed close to 13,000 lives. 
While the State Department would certainly object to this 
characterization, and I agree that the administration's approach should 
be regarded with some nuance, it is important to understand that the 
political parties in Nepal have not always had an easy experience with 
United States diplomacy. That said, I think Assistant Secretary Richard 
Boucher, for whom I have great respect, has done a very good job of 
setting a different tone since assuming his new post and during his 
recent visit to the region. His sense of initiative has been 
tremendously useful in getting our relations with Nepal back on better 
footing.
    I think it is also important to note that the widespread street 
protests in Nepal were not just people mobilizing against an autocratic 
monarchy. I also believe very much that this was an expression of 
popular will for a credible peace process. There was widespread 
dissatisfaction among Nepalese, and even lower ranking members of the 
Royal Nepalese Army, that the King did not respond positively to an 
earlier unilateral cease-fire by the Maoists or by the agreement 
between the Maoists and the seven major political parties. If you 
travel in any village in Nepal, it is abundantly clear that this is a 
war that will need to be settled by negotiation not force. But let me 
be clear: This does not necessarily mean that the Maoist insurgents are 
truly committed to peace. Instead, it means that the people of Nepal 
and its political parties believe, as do I, that it is high time to 
thoroughly test the willingness of the Maoists to enter a serious and 
well-structured peace process and return to mainstream democratic 
politics.
    Looking forward, Nepal faces immense challenges. The country is 
trying to simultaneously manage a fragile coalition government, 
navigate a three-way peace process, provide sufficient security that 
elections can be held and politicians can operate openly--all the while 
managing an inclusive, sweeping, and entirely new process for rewriting 
the constitution. This would not be an easy feat in the best managed of 
countries, much less one that is still reeling from years of war, 
underdevelopment, and exclusion.
    This also makes it all the more vital that the major players in the 
international community speak with one voice. We have urged that the 
United States, India, and the United Kingdom form a Contact Group to 
cooperate on key implementation issues to support peace and democracy, 
and feel that such a coordinated approach is more important than ever. 
While generally moving in the same direction on policy, the United 
States, India, and the U.K. have at times struggled to fully harmonize 
their positions, placing a greater burden on a Nepalese political 
system that is already straining at the limits of its capacity.
    There are a number of important practical steps that should be 
urgently taken by the international community. Obviously, international 
involvement is conditioned upon such support being desired and 
requested by the legitimate Government of Nepal. Fortunately, there is 
every indication that the Seven Party Alliance government is eager for 
such international support as long as it does not trod on its 
sovereignty and is designed in a sensible and limited fashion. In that 
spirit, I think we should probably not talk about the international 
community mediating a peace process, rather an international approach 
that offers specific technical support and expertise to help Nepal move 
forward.
    International leadership will be particularly crucial in helping 
design and deploy an international cease-fire monitoring mission in 
conjunction with the Government of Nepal. Having seen first-hand how 
the 2003 cease-fire between the Royal Nepalese Army and the Maoists 
crumbled under the weight of suspicion, distrust, and mutual 
provocation, it is absolutely essential that a modest monitoring 
mission be deployed to help report on incidents when they occur, engage 
the concerned parties, and prevent small incidents from snowballing out 
of control. This need not be a large or heavily armed mission, but it 
does need to be nimble and it does need to have sufficient reach to get 
into the countryside.
    It may well be most appropriate to expand the existing U.N. Office 
of the High Commissioner for Human Rights (OHCHR) operation in Nepal to 
tackle this task in conjunction with the government. OHCHR enjoys a 
very good and rightly earned reputation in Nepal for its work, and its 
presence in the field since it has been deployed has made a 
considerable impact in curbing human rights abuses. This monitoring 
presence would assist with supervision of Maoist and government forces, 
and would be a logical precursor to efforts that would be necessary as 
Nepal explores possible disarmament and demobilization proposals as 
part of a potential peace agreement.
    There may well be roles for other U.N. agencies as we move forward, 
as well as individual governments. In each case I think it is most 
important that we carefully define the mission, call on those actors 
who can provide the specific technical skills most in need and avoid 
efforts that would imply outside actors were being given a central role 
in political functions better decided by the Nepalese.
    The second area that is ripe for international support and 
assistance is in the realm of the constituent assembly. The constituent 
assembly has long been a goal of the Maoists, and the restored 
parliament signaled its intention to move forward with a constituent 
assembly as one of its first acts. While the phrase ``constituent 
assembly'' has often been repeated as mantra, there is considerable 
cloudiness about how this process will work. Certainly, the idea of 
having some sort of constitutional convention is welcome, and the 
existing constitution was essentially negotiated in smoke-filled rooms 
late at night. Given Nepal's crippling legacy of exclusion and 
discrimination based upon caste, class, gender, ethnicity, and region, 
a more inclusive constitution should be the foundation upon which a 
stable polity is built.
    However, tremendous work needs to be done to carry off a 
constituent assembly effectively. Deciding, essentially from scratch, 
what type of government and electoral system would best serve Nepal is 
a complicated question, and international donors and experts can 
provide a great service by helping Nepalese educate themselves about 
the pros and cons of the different models of governance. This is not 
the proper forum to debate the relative merits of issues such as 
proportional representation, first-past-the-post balloting, or set 
asides for women and ethnic minorities. However, this debate must take 
place in Nepal, and given Nepal's limited and sometimes troubled 
democratic experience, it would greatly benefit all those involved if 
they were given exposure to such alternative models or could discuss 
them with parliamentarians living under such systems.
    The actual conduct of the constituent assembly is another area that 
calls for the preparation of significant groundwork. By almost all 
estimations, a constituent assembly would require either the elections 
of delegates to prepare and debate the constitution or, at the very 
least, public ratification of a constitution once prepared. In any 
case, Nepal has not conducted a free and fair election in a number of 
years, and political parties need genuine assurances that security on 
the ground has truly improved for them to feel comfortable discussing 
politics and platforms in remote areas.
    The United States, and its like-minded allies, can also play a key 
function in maintaining the momentum for peace. Nepal, and its people, 
have both been through a lot. The more quickly they see improvement in 
basic ``bread-basket'' issues, the more likely peace is to stay on 
track. Development and humanitarian
assistance can help consolidate the peace and open up space for 
economic development. It would also be helpful if international 
financial institutions gave their highest priority to promoting 
macroeconomic stability rather than forcing through ambitious reform 
proposals at a time when a slightly wobbly coalition government is 
poorly positioned to deliver on such reforms. It is important that we 
remember that the new government is fragile and interim. Its legitimacy 
is based on popular support for a peace process and democracy; it is 
not a full-fledged government with legislative and governance 
capacities.
    Several other steps would also be very useful for the U.S. 
government to embrace:

  <bullet> There should be no resumption of lethal military assistance 
        to Nepal until the Royal Nepalese Army is fully under civilian 
        government and such aid is requested by a democratic 
        government. Any resumption of U.S. military aid that did not 
        meet these basic criteria would be seen as a dangerous and 
        provocative measure by the Maoists and many mainstream 
        politicians.
  <bullet> Channel all contacts through the civilian government, with 
        engagement with the military predicated on concrete steps being 
        taken to operationalize democratic control.
  <bullet> Offer the government practical expertise on civilian 
        oversight of the military, including through the budget process 
        and oversight of senior appointments.
  <bullet> Maintain pressure for the full and transparent investigation 
        of human rights abuses, including unresolved cases of forced 
        disappearance, and for adequate sentencing of those convicted, 
        while acknowledging that transitional justice is a sensitive 
        national issue that will be best resolved as part of the peace 
        negotiations.
  <bullet> Develop practical assistance plans to build politicians' and 
        civil servants' professional management capacities.

    The greatest enemy of a lasting peace in Nepal will likely not be 
the Royal Nepalese Army, politicians, or the Maoists. Instead, the 
greatest enemy of the current peace process will probably be delays, 
misunderstandings, and logistical headaches on the ground. It will be 
bureaucratic snags in donor headquarters and in prolonged discussions 
about cease-fire monitoring or election observers. It will be 
resentment among citizens, soldiers, and guerillas that the dividends 
of peace have yet to materialize. This need not be the case.
    There is no time to rest upon the laurels of the inspiring and 
heroic outpouring of support for democracy in Nepal. It is time to roll 
up our collective sleeves and tackle the hard work that remains.
    For recent International Crisis Group reports on Nepal see: 
www.crisisgroup.org.

    The Chairman. Thank you very much, Mr. Norris.
    Gentlemen, thank you for your testimony. A little bit of 
discrepancy about the role that the United States can play. Mr. 
Thapa, you said in your prepared statement, ``The main role 
that the United States can play in helping peaceful transition 
is mainly by staying on the sidelines and letting the process 
unfold by itself and that includes accepting the possibility of 
the constituent assembly voting out the monarchy.'' Maybe to 
revisit some of your testimony, but let's start with Mr. 
Norris. Do you agree with that? Our best role is to sit on the 
sidelines?
    Mr. Norris. Well, I think there is probably not a whole lot 
of difference between Deepak's position and my own. Clearly, we 
don't want to interfere unduly in the political process. I 
think it is incumbent on the United States to accept what the 
people of Nepal decide freely and fairly. With that said, I 
think the Government of Nepal and all the parties involved will 
have opportunity and probably are eager for the opportunities 
for the United States to lend expertise, resources, and their 
skills to certain specific tasks. Including, probably, backing 
the U.N. effort that would involve cease-fire monitoring. 
Specific, technical, and assistance as far as either it is 
bilateral foreign aid or many of the hard issues that will be 
involved in potentially demobilizing a guerilla force. So, I 
think there is probably a fair amount of agreement there. But I 
think Deepak is rightly stressing that we shouldn't be too 
heavy-handed in how we view Nepali politics.
    The Chairman. It seems as though, in one of your 
testimonies, I believe it was Mr. Thapa, said that probably 
``Only 15 percent of the public support is for the Maoists.'' 
It might ebb and flow a little bit. But only 15 percent--and is 
that accurate? First of all, let's start from that premise. Is 
that accurate?
    Mr. Thapa. That is what the opinion polls have shown so 
far.
    The Chairman. They don't trust the Americans but does the 
general public, the rest of the 85 percent--from your testimony 
they say they are less reluctant to accept it, but the other 85 
percent or 80 percent, whatever it might be are more supportive 
of an American presence?
    Mr. Thapa. An American presence, I guess would be, and the 
kind that you mentioned.
    The Chairman. Maybe not a presence but American assistance.
    Mr. Thapa. Assistance, yes. I think the--my statement 
missed that point out. We don't want to see the United States 
leading the way in Nepal. The political process should be 
allowed to go along, unlike what we saw in the past few months, 
especially since November when the parties and the Maoists came 
to an understanding. The main spokesman for the government was 
the U.S. Ambassador in Katmandu--the main spokesman for the 
Nepal Government, it seemed at the time. When he was out on a 
media spree, lambasting the agreement, which I think was 
slightly unwarranted at the time. That is what I mean by the 
United States stepping aside. Absolutely, the kind of technical 
assistance that would be required for a constituent assembly--
the monitoring of the peace process and other such details 
would require assistance from the international community 
including the United States.
    On the question of the 15 percent support of the Maoists, 
that is what the polls show. But these are polls taken in the 
context of war, ongoing insurgency. So, that might not truly 
reflect the desires of the people. I think the Maoists have 
slightly more support than this, but certainly not enough to 
get them a majority in any kind of election, but slightly more 
than this. The question of whether the rest of the 85 percent 
support the U.S. involvement, I think hinges on the question of 
how it would be perceived by the other party of that conflict, 
namely the Maoists. We don't want that relationship that has 
been built up between the parties and the Maoists to sour at 
this moment.
    Thank you.
    The Chairman. And in that sentence, you said, ``That 
includes accepting the possibility the constituent assembly 
voting out the monarchy.'' Would the monarchy stand for being 
voted out? Do they have the power to buck the constituent 
assembly?
    Mr. Thapa. I think in interests of peace, as far as--
    The Chairman. Is that a possibility? What are the possible 
realities the assembly?
    Mr. Thapa. It is very open. It could go either way.
    The Chairman. Would the monarchy stand for that?
    Mr. Thapa. If the political process as it is continuing 
right now, whereby the parliament is consolidating its position 
by the day. If it goes along as it has so far, then there is a 
possibility too, that the monarchy will not have a choice but 
to step down if the people voted it out.
    The Chairman. Mr. Zia-Zarifi, a little bit of discrepancy 
on the American--our influence and whether it is positive 
there. And also as far as the United Nations presence. I was 
lucky enough to observe the Liberian elections this fall. I was 
immensely impressed with the United Nations work under very 
daunting circumstances in Liberia. Can the United Nations be 
more effective pushing the peace process forward?
    Mr. Zia-Zarifi. Let me start with something about the role 
of the United States. The U.S. Embassy in Katmandu, especially 
since at times it seemed that there were discrepancies between 
what was coming out of Katmandu and what was coming out of 
Washington, which by and large actually seemed better. That is 
a problem to overcome, as I think John and Deepak have 
adequately pointed out.
    At the same time, the Leahy amendments, the amendments on 
the human rights conditions placed on military aid to Nepal did 
have real impact on the ground. They did force the RNA to stop 
or at least slow down its practice of disappearances. It got 
the RNA to behave a little bit better, not perfectly, of 
course, but it did really have an impact on the Nepali Army. It 
indicates the influence that United States certainly has with 
the Nepali Army. But I am not sure whether this was a question 
of polling, but again I think there was a recognition that this 
kind of pressure and standing on principle by the United States 
is useful. So, I think again going forward, the United States 
can demonstrate that it is driven by principles and it will 
stand by what the Nepali people want. It will support their 
human rights. I think it can be accepted quite warmly by the 
Nepali people.
    As to the U.N., I just want to make clear. I want to take 
every opportunity to congratulate the United Nations Human 
Rights Mission in Nepal. This is one of the largest U.N. Human 
Rights Missions in the world. It did everything that we had 
hoped and more in the context of that civil war. They really 
contributed to lowering the temperature in a lot of places. 
They really contributed to giving both the Maoists and the army 
the sense that somebody was looking over their shoulder. I 
think they will have to play a very important role in any kind 
of a peace process and monitoring any kind of a cease-fire. 
However, the current configuration, the 50 or so people they 
have there are not really military. So, they are just the very 
technical aspects of a cease-fire. That will require people 
with a military background. I just spoke with the folks at the 
U.N. Mission over the last couple of days. They just said, 
look, our present configuration will not allow us to engage in 
this kind of monitoring. If you want it we can do it, but we 
have to reconfigure. For that we need money. But we also will 
need the support of technical experts with a military 
background and those would have to come from places like the 
United States, the European Union, or India, for instance. So, 
it is not at all, I think, a question of the U.N. being not 
capable. It is a question of whether we will provide them with 
sufficient resources. I think the experience over the past year 
indicates that where the U.N. does have enough resources in 
places like Nepal, they can do great, great things as they are 
a force multiplier. The United States can provide them with 
some money. Other people can't, and we can do a lot more than 
we could by just say having the United States involved.
    The Chairman. What is the public's support for neighboring 
Indian involvement? Is there apprehension about that? The next 
question might be Great Britain, who might have and also the 
U.K. have an interest here. Maybe Mr. Thapa can answer that.
    Mr. Thapa. On the question of the Indians. For the past 
half a century and more, we have had a very uneasy relationship 
with India. Indians are not viewed so kindly--that is, the 
Indian establishment. Nepal depends a lot on Indian's itself in 
terms of providing employment and providing all kinds of 
services to the country. But the Nepali establishment and a lot 
of people are very wary of Indian intentions. Having said that, 
at the moment relations are much better than they have ever 
been for the past almost 2 decades. That has come about mainly 
because of the rule India has played in bringing this 
understanding between the Maoists and the Seven Parties to some 
kind of formation.
    So, in that sense, India is looked upon much more kindly. 
But that does not mean that Indian involvement will be received 
so well in Nepal. That is the realization that India has. If 
there is any indication in the past couple of days, we have had 
news reports coming out from New Delhi that India is also 
willing to consider a much expanded U.N. role in Nepal.
    The Chairman. And the U.K.?
    Mr. Thapa. I--
    The Chairman. How were they viewed by the people?
    Mr. Thapa. Well, the U.K. is really a small player. The 
U.K. is there because it was the colonial power in the region. 
And of course, also because so many of our citizens serve in 
the British Army. Due to that--but it has nothing of the kind 
of clout that India has or the United States--the amount of aid 
that the United States provides is really small compared to 
what it could or what it has to other countries. The 
significance of U.S. support or lack of support to any kind of 
endeavor is very tremendous.
    The United States also has recognition in Nepal. In fact, 
westerners or white people are known as Americans in Nepal, 
through much of Nepal--unlike in other parts of South Asia 
where white people are British. So the United States has that 
goodwill, as John mentioned, on a people-to-people level.
    The Chairman. Thank you.
    Mr. Zia-Zarifi. If I may just add a little bit. The U.K. to 
some extent punches above its weight in Nepal because of its 
involvement in the European Union. There is a pretty small 
European Union contingent in Nepal but they are very large 
donors. And so, I think out of the five or six embassies that 
are there, the U.K. is viewed as being the top one, in terms of 
influence. So, it is important also for the United States to 
work with the European Union in terms of coordinating its 
policies on aid and with the U.K., especially on how they will 
go forth with military supplies and maintaining the 
restrictions on military supplies.
    The Chairman. Thank you. With all insurgencies--probably 
most insurgencies are fueled by, as much as anything, a cause 
but also personalities, but you don't hear too much about 
personalities in the insurgencies. The Maoists, Prachanda and 
Baburam Bhettarai, are the--the perception or change. In my 
mind that these are--are these well-known figures in Nepal? 
Maybe educate me a little bit on how so, and what type of 
people they are.
    Mr. Norris. Well, Deepak, who's got an excellent look on 
the topic, is probably in the best position to do that.
    Mr. Thapa. We've never seen Prachanda. He has been living 
in underground existence for nearly 30 years now. He went 
underground in 1979 and has never surfaced in public. He plans 
to do that. He plans to lead the Maoists team in negotiations 
with the government. It is not so much of a personality driven 
party, as the Maoists themselves would like to make it out to 
be. There are other leaders also of equal stature within the 
party. This is reflected in their statements that come up 
periodically from them. There is acknowledgement of the various 
other leaders who have provided intellectual inputs into this 
ideology that they have drawn up for Nepal.
    Bhattarai was very much in the political scene until 1996 
when he dropped out. In fact, it was he who presented a 
memorandum to the government warning them that they would be 
starting a rebellion soon. Since then, he disappeared and he 
surfaced in 2003. He is considered to be the ideological force 
behind the Maoists. But that is also open to debate. He is the 
more articulate one because he has a Ph.D. in Urban Planning. 
He is very articulate. That is why he is considered to be the 
main ideological voice of the movement. But that is also open 
to debate because there are many others who have been schooled 
in similar fashion over the years.
    The Chairman. And back to the other question about the 15 
percent. These characters--they are not garnering broad-based 
public support. If you are saying the Maoists have 15 percent 
support according to the polls among the people, does everybody 
know these people? Prachanda and Bhettarai's are they very, 
very well-known by everybody in that country?
    Mr. Norris. Yes.
    Mr. Thapa. Yes, very much. In fact, these leaders have been 
reaching out to the public.
    The Chairman. But they are not--despite all the poverty--
they are not getting above 15 percent? Why is that?
    Mr. Thapa. Well again it depends on how the questions were 
framed and in what context the questions were framed also. It 
is very difficult for a hardcore Maoist supporter in--which is 
not under the Maoists. To declare support for the Maoists 
because, as Sam also mentioned, John mentioned as well, there 
is the fear that the military would retaliate and kill the 
people for far less than declaring themselves to be supporters 
of Maoists. So, that is an open question whether they have 15 
percent support or more. But they are very well-known. They are 
given interviews. They write articles in the Nepali press all 
the time, which is widely read because newspapers are 
practically the only source of information--only reading 
material in much of Nepal. So it is widely read. So these are 
characters that are very well-known, perhaps as well-known as 
the Prime Minister and the King, at least by name, although 
people have not seen them so far.
    The Chairman. From the underground, these will come from 
the underground--in Prachanda's case?
    Mr. Thapa. Yes, in the case of both of them, so far. In 
recent months, they have been giving interviews on BBC radio. 
They have been giving interviews to the Nepali press and the 
Indian press, also. So, they become much more visible.
    Mr. Norris. I think it is also important to understand that 
the relatively low favor ability ratings you might see for the 
Maoists does not translate as high favor ability ratings for 
the other actors involved. I think that is part of why we saw 
such widespread street protests that people were fed up with 
the King. They were fed up with the army. They were fed up with 
the Maoists. And they were fed up with the inability of the 
political parties to deliver peace. So, I would be surprised in 
this kind of last round of polling if anybody cleared 20 
percent, if you asked the public how they thought they were 
doing. I think it is important to understand that the public 
and Nepali has a lot of problem with how the Maoists have 
conducted their insurgency. But at the same time, the Maoists 
have tapped into a real vein of dissatisfaction on some major 
issues in Nepal, that there is a profound history of 
discrimination and exclusion based on caste, class, region, 
language, ethnicity, and gender, and all of these are huge 
issues. So there is a very large proportion of Nepali society 
that feels that it has never really had any say in how 
decisions are made in the country.
    I think if the United States and the political parties in 
Nepal want to affectively undercut support for the Maoists over 
the long-term, the best thing to do is to move toward a 
genuinely inclusive political system and show that the benefits 
of development will be spread much more widely than simply 
Katmandu Valley. I think if the politicians and the 
international community can do that, the Maoists really won't 
have a leg to stand on over time, because then what would they 
be fighting for. They would be fighting for personal power or 
for an absolute communist state or for a glorious people's 
revolution, all of which don't really have much support at all 
in Nepal.
    The Chairman. Thank you.
    Mr. Zia-Zarifi. Among the issues that the United States can 
and should raise, which I think are very popular among the 
street protestors for instance, are as Nepal begins to change 
its political system to have greater protection for 
untouchables. I mean the practice of untouchability and caste 
persists in Nepal. I mean it is a grotesque practice and it has 
been the untouchables who have to some extent borne the brunt 
of the worst of the abuses. Women are still really suffering in 
Nepal. And again, from the legal policy level to the level at 
which decisions about disbursement of aid at the village level 
is made, we need to make every effort to include these groups 
and to signal very quickly that the demands of these people are 
going to be met and that there is no reason for them to express 
themselves through arms. One of the most popular of the Maoist 
measures is allowing girls and women to take part in the 
military. As a result, we hear a lot of girls, 16-, 17-year-
olds who are proud. They say, you know I had no future in my 
own village and so this was the best thing that I could do. I 
think it is important not to take that away from the Maoist, 
but more important to give that to the people and to indicate 
that the new government is responsive and will be held 
accountable to the marginalized and the least powerful.
    The Chairman. Well, thank you gentlemen. In my own defense 
and not knowing these characters--I haven't been to Nepal. I 
want to go. I know it is in my subcommittee. I have not had the 
opportunity to visit. But also in your prepared testimonies I 
didn't see any mention of any of the personalities, but 
obviously they are very well-known in the country--universally 
well-known. So forgive my ignorance. Thank you for your 
testimony. Any other comments?
    The record will stay open for a week. Thank you gentlemen.
    This hearing is adjourned.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]
                              ----------                              


Additional Questions and Answers Submitted by Sen. Joseph Biden for the 
                                 Record


                      Responses of Richard Boucher

    Question. Your testimony cites the commonly accepted figure of 
13,000 deaths in Nepal's decade-long insurgency, but does not provide 
detail on which party is doing the bulk of the killing. According to 
the State Department's Country Reports on Human Rights Practices for 
2003 (the last year for which cumulative figures are given), more than 
two-thirds of the victims from 1996-2003 are listed as Maoists (5,551 
deaths out of 8,296); the ratio in the 2004 and 2005 reports are 
similar (respectively, 1,457 out of 2,380 and 964 out of 1,630). These 
figures do not attribute any of the 1,855 deaths listed as ``civilian'' 
to the government rather than the Maoists.
    (a) Do you accept as accurate the estimate that roughly two-thirds 
of the 13,000 deaths in the insurgency have been caused by government 
security forces?
    (b) If you do not accept this estimate, please provide an alternate 
estimate, as well as the source of data on which such an estimate is 
based.
    (c) The State Department's Country Reports on Human Rights list 
1,855 of the deaths in the conflict as ``civilian'' (1,114 between 
1996-2003; 474 in 2004; 267 in 2005). How many of these civilian deaths 
are attributable to government forces rather than to Maoists?

    Answer. According to the latest data obtained by U.S. Embassy 
Kathmandu from the Informal Sector Service Center (INSEC), a Nepalese 
human rights organization, since 1996 Nepalese security forces have 
killed 8,332 people--roughly two-thirds of those killed in the conflict 
overall--including 5,226 ``political workers.'' The ``political 
workers'' subgroup includes armed Maoists and is not broken down 
further into civilians and armed cadre by the Informal Sector Service 
Center, so the composition of the subgroup is unclear. The Informal 
Sector Service Center reported that the Maoists were responsible for 
4,915 deaths, of which 2,126 were security personnel.
    Data from Nepal's conflict is fluid and difficult to substantiate 
given the conflict environment. Inaccurate casualty reporting likely is 
part of the propaganda strategy of both sides. Changes over time in the 
data we report result from continuous efforts by U.S. Embassy Kathmandu 
to obtain the most up-to-date and accurate data available.

    Question. Your statement before our committee noted, ``We also 
stand ready to provide assistance to security forces if requested by 
the new government.''
    (a) Has any planning begun, either at State or (to the best of your 
knowledge) at DoD, for renewed security assistance to Nepal? If so, 
please provide details of such planning.
    (b) Given the widespread perception among the Nepali population 
that the United States has in the past supported the monarchy rather 
than the democratic forces, and given the uncertain allegiances of the 
Nepali military if the palace chooses to confront the political parties 
in an attempt to maintain power, what concrete steps are you taking to 
insure that the offer of security assistance does not lead to a 
misunderstanding on the part of the palace, the military, or the 
political parties?

    Answer. We have always been operationally prepared to resume the 
elements of our security assistance program with Nepal, consistent with 
Leahy amendment human rights criteria and other relevant law, that we 
suspended after the King assumed executive authority on February 1, 
2005. As a policy matter, and as I noted in my testimony, we are only 
prepared to resume such assistance if requested by Nepal's Government. 
The government has not yet made such a request. Our clarity with all 
parties that only a request from the government will make possible a 
resumption of suspended assistance leaves no room for misunderstanding 
that we view the army as responsible to the government.

    Question. According to the State Department's Human Rights Report 
on Nepal for 2005, ``the government continued to commit many serious 
abuses, both during and after the state of emergency that suspended all 
fundamental rights except for habeas corpus. Members of the security 
forces and the Maoist insurgents committed numerous grave human rights 
abuses during the year.'' Previous Human Rights Reports, issued during 
periods when the U.S. government was supplying lethal aid to the RNA, 
used similar language.
    (a) Given this history, do you envision any new procedures to 
guarantee that United States aid is not provided to the security forces 
of Nepal unless these forces show marked improvement in their human 
rights record?
    (b) If you do envision new procedures to guarantee human rights 
improvement, please describe these procedures.

    Answer. A core purpose of our engagement with Nepalese security 
forces has been to increase their professionalism and respect for human 
rights. Therefore, consistent with the wishes of the Nepalese 
Government, we intend to continue to offer aid to Nepalese security 
forces using procedures that ensure consistency with Leahy amendment 
human rights criteria and other relevant law. These procedures include 
vetting individuals and units proposed for assistance for previous 
human rights abuses that would disqualify them from receiving U.S. 
assistance.

                                  <all>

</pre></body></html>
